                                              8 December 1997


    Memorandum


                To:       File
                          196060035




         Through:


          Subject:    '   Closeout Memo

    O n 1 July 1996 the




    complainant) to cooperate;
    already being performed by ot                                          ad embezzled funds from the
-rtgage               fund, and covered it up with

    The allegations were general in nature, and did not provide specific examples of the
    misconduct described above.. As a result, we were unable to determine the validity of these
    complaints. We examined account records from the               three most recent awikds:
.                                                . This            not reveal any irregularities
    or suggest areas for further review.

    During our review of                we identified a potential conflict of interests hvolving Dr.
                       who served in          from August             through August               under an
                       Personnel Act (PA) assignment from                                             . In
    addition to his NSF position, ~     r    p     v     e a s (de e e c r e t a r y , and t-isted
    him and his NSF affiliation on its etter ea

                                           resulted in              was reviewed in November
                                                    (~r-was            not affiliated wit-
                                                     award date was              . At that time.
    NSF indicated its intent to continue support in the amount of      0 in FY 1 6,
In a 29 April 1996 letter to NSF, the PI requested a six month extension of the award, which




                                       PI'S formal reauest for th




Applicable Law
        Under 18 U.S.C. 5 208(a), a federal employee cannot participate 'personally and
substantiallvn in a matter in which an organization he serves as an officer has a financial
                                                 u


interest.                              articipated personally, i.e. directly, and was an officer
(Secretary) of th                       participation was not "substantialn under 5 208. This
interpretation is                       interpretation of 9 208, which is set forth in 5 C.F.R.
3 2640.103(a)(2). This regulation states that '[tlo participate 'substantially' means that the
employee's involvement is of significance to the matter.          ...
                                                                 [I]t requires more than official
responsibility, knowledge, perfunctory involvement, or involvement on an administrative or
peripheral issue."

In this case, NSF's original award letter of                included a statement of its intent to
provide the           CGI in FY           Dr.-recommendations                  pertained not to
the substantive issue of whether to issue to the CGI, but rather the administrative procedure
for carrying out NSF's original commitment.




9 208(a), an employee shall disqualify himself from participation in the matter . . . ."2
                                        &*   '




1
       5 C.F.R. 3 2635.101(b)(14).
2
       5 C.F.R. 3 2635.402(a). See also 5 C.F.R. 3 2640.103(c).
                                                                                             -
 Under NSF's Conflict-of-Interests Rules and Standards of conduct regulations,' a federal
 employee is "automatically disqualif[iedIn from handling proposals from an institution with
 which he holds an ~ f f i c e .The
                                 ~ regulations
                                      -          instruct that in such cases, "You must not
 participate in handling [the proposal] under any circumstances" (emphasis in original).5

 We s ~ o k eto               NSF's Designated
                                          "       Aeencv Ethics Official. who said that Dr.
                                                         u    z


              ad often sought his counsel on conflict issues. Mr. -said             that Dr.
                    not have participated in this award in this manner, an provided OIG
 with copies of recusal memoranda from ~r.-               identifying his conflict on
 matters.

In_2
--                      memorand
                       1-.-    -. - .-
                                       Mr.            advised Dr. -that            he "must not
                                       nciu ding- -prc - ,Is a n d ot er award-irelated matters)
particip
involvir
allow tl
                        SF mattel
                        b ~ h ememorandum also advised Dr. -h
                   to list vour NSF affiliation on
                                                                :at               2;-
participation and the use of his NSF affiliatio~ I the l e t t e r h e a d violated t e a vlce
provided to him by MA

O n December            I interviewed ~                  rtelephone. He said. that when the CGI
                                                                                             ~
came to NSF in
for the CGI. Dr.
whether to
                                    only participation was to explain to Dr.
                                                                             C        the process
                                   id that he had never engaged in substantwe lscussions about
                                   said that he did not think that anyone at NSF had had such
discussions, because the CGI decision had already been made by the original review panel.
He also said that he had not sought COI guidance from OGC or from                 because he was
not involved in substantive discussions. Regarding the use of his NSF affiliation on            s
letterhead, he said that it had been listed that way because that was where he received his
official mail while at NSF.

Conclusion

                               participation created only the appearance of a conflict of interests




                                   -
    . .than
Because
rather  rD an actu          conflict, and because his name and NSF affiliation were listed on the
                                    normally recommend corrective action to address these issues.
                                is no longer associated with NSF, and no longer appears on the
                                e is no longer Secretary. For these reasons, corrective action is
unnecessary.

In addition, the allegations regarding Drs.                    are not specific enough to
identify specific incidents of misconduct,      a a : m h e              grants' financial
documents did not indicate any misconduct or areas for further review. For these reasons,
this case is closed as to Drs.              an-



3
         45 C.F.R. QQ 680-684.
4
         45 C.F. R. 5 681.21(b).
5
     .   45 C.F.R. Q 681.22(a).
